XII.

CERTIFICATE OF COMPLIANCE

Certificate of Compliance with Type-Volume Limitation, Typeface
Requirements, and Type Style Requirements
1.

This Writ complies with the type-volume limitation of Rule 33 because: Writ

Writ contains 8,965 words, excluding the parts of the brief exempted by Rule 33
2. This Writ complies with the typeface requirements of Rule 33 and the type style
requirements of Rule 33 because: this brief is Century School Book font size 12.
DATED: February 18, 2021

SALMA AGHA-KHAN, M.D.
PETITONER IN PRO PER
AND APPELLANT-PLAINTIFF

O
rsl
t—I
<D
W)

rv

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

